February 19, 2021
VIA FEDERAL EXPRESS
Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

State Farm Life Insurance Company v. Michael G. Vogt, No. 20-1008

Dear Mr. Bickell:
I am counsel for Plaintiff-Appellee in the above-referenced case. On January 21,
2021, a certiorari petition was docketed in this case, and unless extended by the Court,
the response would be due on February 26, 2021. Pursuant to Rule 30.4 of the Rules of
this Court, I respectfully request an extension of 14 days, up to and including March 12,
2021. This is Plaintiff-Appellee’s first request for an extension.
Thank you for your attention to this matter. Please do not hesitate to contact me
with any questions.

Respectfully submitted,
STUEVE SIEGEL HANSON LLP

By: Norman E. Siegel
Enclosures
cc:

Todd A. Noteboom
Jeremy A. Root
Theodore J. Boutrous Jr.
Kristin A. Linsley
Katherine C. Yarger
Counsel for Appellant

Norman E. Siegel | (816) 714-7112 | siegel@stuevesiegel.com
(816) 714-7100 | stuevesiegel.com | 460 Nichols Road, Suite 200 | Kansas City, MO 64112

